                                                          U.S. Department of Justice

                                                          United States Attorney
                                                          Middle District of Pennsylvania


William J. Nealon Federal Building   Ronald Reagan Federal Building   Herman T. Schneebeli Federal Building
Suite 311                            Suite 220                        Suite 316
235 N. Washington Avenue             228 Walnut Street                240 West Third Street
P.O. Box 309                         P.O. Box 11754                   Williamsport, PA 17701-6465
Scranton, PA 18503-0309              Harrisburg, PA 17108-1754        (570) 326-1935
(570) 348-2800                       (717) 221-4482                   FAX (570) 326-7916
FAX (570) 348-2037/348-2830          FAX (717) 221-4493/221-2246


                                                                        Please respond to:   Harrisburg
January 9, 2009
                                           NEWS RELEASE
         PRESIDENT OF HIGHWAY CONSTRUCTION FIRM PLEADS GUILTY
                 TO TAX FRAUD IN ON-GOING INVESTIGATION

     Martin C. Carlson, United States Attorney for the Middle
District of Pennsylvania; Janice K. Fedaryck, Special Agent in
Charge of the Philadelphia Division of the FBI; Ned Schwartz,
Regional Special Agent in Charge, U.S. Department of
Transportation, Office of Inspector General; John Spratley,
Special Agent in Charge, U.S. Department of Labor, Office of
Labor Racketeering and Fraud Investigations; Leslie P. DeMarco,
Special Agent in Charge of the Philadelphia Field Office,
Internal Revenue Service, Criminal Investigation Division,
announced today that a guilty plea has been entered in connection
with the largest reported Disadvantaged Business Enterprise (DBE)
fraud scheme in U.S. Department of Transportation history.

     Romeo P. Cruz, age 59, of West Haven, Connecticut, the
President and owner of Marikina Construction Corporation and
Marikina Engineering and Construction Corporation, pleaded guilty
in federal court to filing a false income tax return for 2005
which substantially under-reported the income he received from
Marikina. Cruz admitted today that he fraudulently disguised
numerous payments made to himself and members of his family as
legitimate business expenses on the books and records of
Marikina. As a result, his tax return for 2005, which reported
$5,532 in income from Marikina was false.

     Cruz previously pled guilty on August 28, 2008 to conspiracy
to defraud the United States Department of Transportation
(USDOT), the Pennsylvania Department of Transportation (PennDOT),
and various general contractors in connection with a $121 million
DBE fraud. Cruz now faces up to eight years' imprisonment and
fines totaling $500,000. Cruz pleaded guilty pursuant to a plea
agreement in which he has agreed to cooperate in the on-going
investigation and make restitution to the IRS.

     On February 13, 2008, Dennis F. Campbell, a Vice-President
of Schuylkill Products, Inc. (SPI), a Cressona, Pennsylvania,
based manufacturer of concrete products used on highway
construction projects, pleaded guilty to the DBE fraud and awaits
sentencing. On April 15, 2008, Timothy G. Hubler, a Vice-
President of CDS Engineers, Inc., which operated as the erection
division of SPI, pleaded guilty to the DBE fraud and tax fraud
and awaits sentencing. Both men are also cooperating in the on-
going investigation.

     On December 2, 2008, the Federal Highway Administration
suspended SPI, CDS and Marikina from bidding on any projects
using federal funds. On December 9, 2008, a PennDOT hearing
officer issued a report recommending that SPI, CDS, and its
owners be permanently prohibited from bidding on Pennsylvania
highway projects.

     Cruz operated Marikina out of the basement of his home in
West Haven, Connecticut. Marikina was a small highway
construction company that was designated a DBE by PennDOT in
1993, and grew to be the largest recipient of DBE-designated
funds under PennDOT's DBE program. Between 1994 and 2007,
Marikina received over $121 million in subcontracts under the DBE
program. Cruz previously admitted that Marikina really was a
front company for SPI and CDS and that funds were merely passed
through Marikina to make it appear there was DBE participation.
In reality, SPI and CDS personnel performed all of the work in
connection with the subcontracts, and Marikina remitted all of
the proceeds from the subcontracts to SPI and CDS. In exchange
for allowing SPI and CDS to use its name, Marikina was paid a
small fixed-fee, set by SPI. Essentially, SPI and CDS, which were
not DBE's, rented Marikina's name to obtain lucrative government
contracts slotted for small and disadvantaged businesses.

     In announcing this guilty plea conviction United States
Attorney Carlson stated: “The disadvantaged business enterprise
program is designed to ensure that all Americans can enjoy the
full promise of prosperity that is an essential part of this
country’s history. Today’s conviction, in the largest fraud ever
reported involving this program, underscores the basic message
that those who attempt to use this program, which is intended to
create a promise of prosperity, as a pathway to greed will face
severe consequences. I want to commend all of those involved in
this groundbreaking investigation including, the FBI, the U.S.
Department of Transportation Inspector General's Office, the U.S.
Department of Labor Inspector General's Office, the Criminal
Investigation Division of the IRS, and Assistant U.S. Attorney
Bruce Brandler, who is supervising the prosecution.”

     The investigation is being conducted by the FBI, the U.S.
Department of Transportation Inspector General's Office, the U.S.
Department of Labor Inspector General's Office, and the Criminal
Investigation Division of the IRS. Assistant U.S. Attorney Bruce
Brandler is supervising the prosecution.
                              ****
